                                   Federal Register / Vol. 69, No. 9 / Wednesday, January 14, 2004 / Notices                                              2147

      ACTION:   Notice.                                       concerning radionuclides in food. While                III. Electronic Access
                                                              CPG Sec. 560.750 Radionuclides in                         Persons with access to the Internet
      SUMMARY: The Food and Drug
                                                              Imported Foods—Levels of Concern                       may obtain the draft CPG and the draft
      Administration (FDA) is announcing the                  (CPG 7119.14), which was issued in
      availability of a draft compliance policy                                                                      supporting document at http://
                                                              1986 following the Chernobyl nuclear                   www.fda.gov/ora under ‘‘Compliance
      guide (CPG) entitled ‘‘Guidance Levels
                                                              accident, only addresses radionuclides                 References.’’
      for Radionuclides in Domestic and
                                                              in food offered for import, this draft
      Imported Foods.’’ The draft CPG would                                                                            Dated: January 7, 2004.
      rescind and replace the current CPG                     CPG is intended to provide clear policy
                                                                                                                     John M. Taylor,
      Sec. 560.750 Radionuclides in Imported                  and regulatory guidance to FDA’s field
                                                                                                                     Associate Commissioner for Regulatory
      Foods—Levels of Concern (CPG                            and headquarters staff with regard to
                                                                                                                     Affairs.
      7119.14). The draft CPG provides                        radionuclides in both food offered for
                                                                                                                     [FR Doc. 04–719 Filed 1–13–04; 8:45 am]
      updated guidance levels for                             import and domestic food in interstate
                                                                                                                     BILLING CODE 4160–01–S
      radionuclide activity concentration in                  commerce. In particular, the draft CPG
      food offered for import and makes these                 sets forth new guidance levels for
      same guidance levels for radionuclide                   radionuclides, referred to as Derived                  DEPARTMENT OF HEALTH AND
      activity concentration applicable to food               Intervention Levels (DILs). FDA would                  HUMAN SERVICES
      in domestic interstate commerce for the                 use DILs to help determine whether
      first time. The draft CPG also expands                  food in interstate commerce or food                    Office of Inspector General
      the scope of coverage of FDA policy                     offered for import into the United States
      from food accidentally contaminated                     presents a safety concern. The DILs                    Agency Information Collection
      with radionuclides to food accidentally                 adopted in the draft CPG are not binding               Activities (OIG–319–FN)
      or intentionally contaminated with                      on FDA, the regulated industry, or the                 AGENCY: Office of Inspector General
      radionuclides. The agency is also                       courts. In any given case, FDA may                     (OIG), HHS.
      announcing the availability of a draft                  decide to initiate an enforcement action               ACTION: Notice.
      supporting document entitled                            against food with concentrations below
      ‘‘Supporting Document for Guidance                      the DILs or decide not to initiate an                  SUMMARY: In compliance with the
      Levels for Radionuclides in Domestic                    enforcement action against food with                   requirements of section 3506(c)(2)(A) of
      and Imported Foods.’’                                   concentrations that meet or exceed the                 the Paperwork Reduction Act of 1995,
      DATES: Submit written or electronic                     DILs. The scientific basis for the DILs                this notice sets forth the Office of
      comments concerning the draft CPG                       established in the draft CPG is presented              Inspector General’s summary of
      and/or the draft supporting document                    in the draft supporting document. The                  collection activities with regard to State
      by March 15, 2004.                                      draft CPG also contains information that               Medicaid Fraud Control Units’
      ADDRESSES: Submit written requests for                  may be useful to the regulated industry                Recertification Application and Annual
      single copies of the draft CPG entitled                 and to the public.                                     Reports, as required by 42 CFR 1007.15
      ‘‘Guidance Levels for Radionuclides in                                                                         and 1007.17 of the OIG regulations. A
                                                                The agency has adopted good                          proposed notice of these information
      Domestic and Imported Foods’’ and/or                    guidance practices (GGPs) that set forth
      the draft supporting document entitled                                                                         collection activities was published for
                                                              the agency’s policies and procedures for               public comment in the March 26, 2003
      ‘‘Supporting Document for Guidance
                                                              the development, issuance, and use of                  edition of the Federal Register (68 FR
      Levels for Radionuclides in Domestic
                                                              guidance documents (21 CFR § 10.115).                  14668). No public comments were
      and Imported Foods’’ to Paul South (see
                                                              The draft CPG is being issued as a Level               received in response to that proposed
      FOR FURTHER INFORMATION CONTACT).
                                                              1 draft guidance consistent with GGPs.                 collection activities notice.
      Send one self-addressed adhesive label
      to assist that office in processing your                The draft CPG represents the agency’s                  SUPPLEMENTARY INFORMATION:
      request. See the SUPPLEMENTARY                          current thinking on its enforcement                      Type of Information Collection
      INFORMATION section for electronic
                                                              process concerning the adulteration of                 Request: Reinstatement of an expired
      access to this document. Submit written                 foods with radionuclides. It does not                  collection.
      comments on the draft CPG and/or draft                  create or confer any rights for or on any                Title of Information Collection: State
      supporting document to the Division of                  person and does not operate to bind                    Medicaid Fraud Control Units’
      Dockets Management (HFA–305), Food                      FDA, or the public.                                    Recertification Application and Annual
      and Drug Administration, 5630 Fishers                                                                          Report as required by 42 CFR 1007.15
                                                              II. Comments
      Lane, rm. 1061, Rockville, MD 20852.                                                                           and 1007.17. (Previously approved by
      Submit electronic comments to http://                      Interested persons may submit to the                the Office of Management and Budget
      www.fda.gov/dockets/ecomments.                          Division of Dockets Management (see                    under control number 0990–0162.)
      FOR FURTHER INFORMATION CONTACT: Paul                   ADDRESSES) written or electronic                         Use: The information contained in the
      South, Center for Food Safety and                       comments regarding the draft CPG and                   annual reports and recertification
      Applied Nutrition (HFS–306), Food and                   the draft supporting document. Submit                  application is required for certification
      Drug Administration, 5100 Paint Branch                  a single copy of electronic comments or                and yearly recertification by the OIG to
      Pkwy., College Park, MD 20740, 301–                     two paper copies of any mailed                         ensure that federal matching funds are
      436–1640, fax: 301–436–2651, e-mail:                    comments, except that individuals may                  only expended for allowable costs, and
      psouth@cfsan.fda.gov.                                                                                          to determine if a State unit needs
                                                              submit one paper copy. Comments are
                                                                                                                     technical assistance.
      SUPPLEMENTARY INFORMATION:                              to be identified with the docket number                  Frequency: Annually.
                                                              found in brackets in the heading of this                 Affected Public: State government.
      I. Background                                           document. Received comments, the                         Annual Number of Respondents: 48.
         FDA has developed a draft CPG to                     draft CPG, and the draft supporting                      Total Annual Responses: 48.
      rescind and replace CPG Sec. 560.750                    document may be seen in the Division                     Average Burden Per Response: 32
      Radionuclides in Imported Foods—                        of Dockets Management between 9 a.m.                   hours.
      Levels of Concern (CPG 7119.14)                         and 4 p.m., Monday through Friday.                       Total Annual Hours: 2,744 hours.


VerDate jul<14>2003   14:29 Jan 13, 2004   Jkt 203001   PO 00000   Frm 00039   Fmt 4703   Sfmt 4703   E:\FR\FM\14JAN1.SGM   14JAN1
      2148                         Federal Register / Vol. 69, No. 9 / Wednesday, January 14, 2004 / Notices

      FOR FURTHER INFORMATION CONTACT: To                     Executive Boulevard, Room 8101, Rockville,               Dated: January 7, 2004.
      obtain copies of the supporting                         MD 20892–7405, 301/496–7987.                           LaVerne Y. Stringfield,
      statement and any related forms for the                 (Catalogue of Federal Domestic Assistance              Director, Office of Federal Advisory
      paperwork collections referenced above,                 Program Nos. 93.392, Cancer Construction;              Committee Policy.
      e-mail your request, including your                     93.393, Cancer Cause and Prevention                    [FR Doc. 04–737 Filed 1–13–04; 8:45 am]
      address and phone number, to John                       Research; 93.394, Cancer Detection and                 BILLING CODE 4140–01–M
      Bettac, Office of Investigations                        Diagnosis Research; 93.395, Cancer
      (Jbettac@oig.hhs.gov), or call (202) 619–               Treatment Research; 93.396, Cancer Biology
                                                              Research; 93.397, Cancer Centers Support;
      3557. Written comments and                                                                                     DEPARTMENT OF HEALTH AND
                                                              93.398, Cancer Research Manpower; 93.399,
      recommendations for the proposed                        Cancer Control, National Institutes of Health,
                                                                                                                     HUMAN SERVICES
      information collections must be mailed                  HHS)
      within 30 days of this notice directly to                                                                      National Institutes of Health
      the Office of Management and Budget                       Dated: January 5, 2004.
                                                                                                                     National Institute of Arthritis and
      desk officer: OMB Human Resources                       LaVerne Y. Stringfield,                                Musculoskeletal and Skin Diseases;
      and Housing Branch; Attention: Brenda                   Director, Office of Federal Advisory                   Notice of Closed Meetings
      Aguilar (OMB # 0990–0162); 725 17th                     Committee Policy.
      Street, NW., New Executive Office                       [FR Doc. 04–742 Filed 1–13–04; 8:45 am]                   Pursuant to section 10(d) of the
      Building; Room 10235; Washington, DC                                                                           Federal Advisory Committee Act, as
                                                              BILLING CODE 4140–01–M
      20503.                                                                                                         amended (5 U.S.C. Appendix 2), notice
        Dated: January 5, 2004.                                                                                      is hereby given of the following
      Brian P. Carman,                                        DEPARTMENT OF HEALTH AND                               meetings.
                                                              HUMAN SERVICES                                            The meetings will be closed to the
      OIG Chief Information Officer.
                                                                                                                     public in accordance with the
      [FR Doc. 04–746 Filed 1–13–04; 8:45 am]                                                                        provisions set forth in sections
                                                              National Institutes of Health
      BILLING CODE 4152–01–P                                                                                         552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
                                                              National Institute of Arthritis and                    as amended. The grant applications and
                                                              Musculoskeletal and Skin Diseases;                     the discussions could disclose
      DEPARTMENT OF HEALTH AND
                                                              Notice of Closed Meeting                               confidential trade secrets or commercial
      HUMAN SERVICES
                                                                                                                     property such as patentable material,
      National Institutes of Health                              Pursuant to section 10(d) of the                    and personal information concerning
                                                              Federal Advisory Committee Act, as                     individuals associated with the grant
      National Cancer Institute; Notice of                    amended (5 U.S.C. Appendix 2), notice                  applications, the disclosure of which
      Closed Meeting                                          is hereby given of the following                       would constitute a clearly unwarranted
                                                              meeting.                                               invasion of personal privacy.
         Pursuant to section 10(d) of the
      Federal Advisory Committee Act, as                         The meeting will be closed to the                     Name of Committee: National Institute of
                                                              public in accordance with the                          Arthritis and Musculoskeletal and Skin
      amended (5 U.S.C. Appendix 2), notice                                                                          Diseases Special Emphasis Panel,
      is hereby given of the following                        provisions set forth in sections
                                                              552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,             Dermatomyositis Clinical Trial Applications.
      meeting.                                                                                                         Date: January 26, 2004.
         The meeting will be closed to the                    as amended. The grant applications and                   Time: 8:30 a.m. to 1:30 p.m.
      public in accordance with the                           the discussions could disclose                           Agenda: To review and evaluate grant
      provisions set forth in sections                        confidential trade secrets or commercial               applications.
      552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,              property such as patentable material,                    Place: Double Tree Hotel, 1750 Rockville
      as amended. The grant applications                      and personal information concerning                    Pike, Rockville, MD 20852.
                                                              individuals associated with the grant                    Contact Person: Aftab A. Ansari, PhD,
      and/or contract proposals and the                                                                              Scientific Review of Administrator, National
      discussions could disclose confidential                 applications, the disclosure of which
                                                                                                                     Institute of Arthritis and Musculoskeletal and
      trade secrets or commercial property                    would constitute a clearly unwarranted
                                                                                                                     Skin Diseases, 6701 Democracy Plaza,
      such as patentable material, and                        invasion of personal privacy.                          Bethesda, MD 20892, (301) 594–4952.
      personal information concerning                            Name of Committee: Arthritis and                      This notice is being published less than 15
      individuals associated with the grant                   Musculoskeletal and Skin Diseases Special              days prior to the meeting due to the timing
      applications and/or contract proposals,                 Grants Review Committee, Arthritis,                    limitations imposed by the review and
                                                              Musculoskeletal, and Skin Diseases                     funding cycle.
      the disclosure of which would
      constitute a clearly unwarranted                        Committee.                                               Name of Committee: National Institute of
                                                                 Date: February 6, 2004.                             Arthritis and Musculoskeletal and Skin
      invasion of personal privacy.
                                                                 Time: 8 a.m. to 5 p.m.                              Diseases Special Emphasis Panel,
        Name of Committee: National Cancer                       Agenda: To review and evaluate grant                Dermatomyositis Clinical Trial Applications.
      Institute Special Emphasis Panel                        applications.                                            Date: January 26, 2004.
      Development/Pilot Projects in Cancer                       Place: Holiday Inn Chevy Chase, 5520                  Time: 1:30 p.m. to 4:30 p.m.
      Complementary and Alternative Medicine                  Wisconsin Avenue, Chevy Chase, MD 20815.                 Agenda: To review and evaluate grant
      (CAM).                                                     Contact Person: Glen H. Nuckolls, PhD,              applications.
        Date: March 8–10, 2004.                               Scientific Review Administrator, National                Place: Double Tree Hotel, 1750 Rockville
        Time: 7 p.m. to 4 p.m.                                                                                       Pike, Rockville, MD 20852.
                                                              Institutes of Health, National Institute of
        Agenda: To review and evaluate grant                                                                           Contact Person: Aftab A. Ansari, PhD,
                                                              Arthritis, Musculoskeletal, and Skin
      applications and/or proposals.                                                                                 Scientific Review Administrator, National
                                                              Diseases, 6701 Democracy Boulevard, Bldg.
        Place: Bethesda Marriott Suites, 6711                                                                        Institute of Arthritis and Musculoskeletal and
      Democracy Boulevard, Bethesda, MD 20817.                1, Ste. 800, Bethesda, MD 20892, (301) 594–
                                                                                                                     Skin Diseases, 6701 Democracy Plaza,
        Contact Person: Gerald G. Lowinger, PhD,              4974, nuckollg@mail.nih.gov.
                                                                                                                     Bethesda, MD 20892, (301) 594–4952.
      Scientific Review Administrator, Special                (Catalogue of Federal Domestic Assistance                This notice is being published less than 15
      Review and Resources Branch, Division of                Program Nos. 93.846, Arthritis,                        days prior to the meeting due to the timing
      Extramural Activities, National Cancer                  Musculoskeletal and Skin Diseases Research,            limitations imposed by the review and
      Institute, National Institutes of Health, 6116          National Institutes of Health, HHS)                    funding cycle.



VerDate jul<14>2003   14:29 Jan 13, 2004   Jkt 203001   PO 00000   Frm 00040   Fmt 4703   Sfmt 4703   E:\FR\FM\14JAN1.SGM   14JAN1
